     Department of Homeland Security





     FEMA Public Assistance Grant Funds Awarded to 

        City of Miramar, Florida - Hurricane Wilma 





DA-12-20                                        June 2012

                      ~_.           OFFICE OF INSPECTOR GENERAL
                        ~"I> "r/J        Department
                                         Dep artment of Ho melan
                                                            elandd Securi
                                                                   Security
                                                                         ty
                                          Washin gton,, DC 20528 1www.o
                                          Washington              www.oiig.dhs.
                                                                          .dhs.ggov


                                              JUN 1 5 1012

MEMORANDUM FOR:                          Major P. IPhil) May
                                          gional Administrator
                                                  Administrator,, Region IV
                                          deral Em                          Agency

FROM:
                                         Assi ant Inspector Gen
                                         Office of Emergency Management Oversight

SUBJECT:                                 FEMA Public Assistance Grant Funds Awarded to
                                          City of Miramar
                                                  Miramar;; Florida-Hurricane Wilma
                                         FEMA Disaster Number 1609-0R-Fl
                                         Audit Report Number DA-12-20

We audited Public Assistance funds awarded to the City of Miramar, Fl, (City) (FIPS Code
011-45975-00). Our audit objective was to determine whether the City accounted for
and expended Federal Emergency Management Agency (FEMAJ grant funds according
to Federal regulations and FEMA guidelines.

As of October 20
              20,, 2011, the City had received an award of $16
                                                           $16..5 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting
from Hurricane Wilma, which occurred in October 2005. The award provided 100
percent FEMA funding for debris removal activities, emergency protective measures,
and permanent repairs to buildings and facilities. The award consisted of 10 large
                                1
projects and 10 small projects.

We reviewed costs totaling $15.9 million claimed under eight large projects and one
small project (see Ex hibit, Schedule of Projects Audited)
                                                   Audited).. The audit covered the period
October 2323,, 2005, to April 6, 2011
                                 2011,, during which the City received $15.9 million of FEMA
funds under the projects reviewed. At the time of our audit, the City had not submitted
final claims on all project expenditures to the State.

We conducted this performance audit between October 2011 and April 2012 pursuant
to the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient
                sufficient,, appropriate evidence to provide a reasonable basis for our


1   Federal regulations in eff
                            ffec
                               ectt at the time of th e di
                                                        disaste
                                                           sasterr se
                                                                   sett the large project thr
                                                                                          thres
                                                                                              eshold
                                                                                                hold at $57,500.
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit by applying the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed
   City, State, and FEMA personnel; reviewed the City’s procurement policies and
   procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary to accomplish our audit objective.
   We did not assess the adequacy of the City’s internal controls applicable to its grant
   activities because it was not necessary to accomplish our audit objective. However, we
   gained an understanding of the City’s method of accounting for disaster-related costs
   and its policies and procedures for administering the activities provided for under the
   FEMA award.


                                      RESULTS OF AUDIT

   The City did not separately account for project expenditures as required by Federal
   regulations. In addition, we question $5,991,845 of contract costs claimed for debris
   removal activities because the City did not comply with Federal procurement standards.
   Finally, the City’s claim contained $30,238 of costs covered by insurance and the Federal
   Highway Administration.

   Finding A: Project Accounting

   The City did not separately account for project expenditures as required by Federal
   regulations. According to 44 CFR 206.205(b)(1), large project expenditures are to be
   accounted for on a project-by-project basis. Further, 44 CFR 13.20(b)(2) requires grant
   recipients to maintain accounting records that identify adequately the source and
   application of funds for federally sponsored activities. The City established a special
   account within its general ledger to record disaster expenditures and revenues.
   However, the account did not separately identify project expenditures and receipts, and
   contained non-FEMA-eligible expenditure and receipt transactions. As a result,
   individual project receipts and expenditures could not be readily identified and traced to
   supporting documentation without direct assistance from City officials.




www.oig.dhs.gov                                2                                        DA-12-20
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Finding B: Contracting Procedures

   The City did not comply with Federal procurement standards when awarding three
   contracts totaling $5,991,845 for debris removal activities. Federal procurement
   standards at 44 CFR 13.36 required the City, among other things, to—

       •	 Perform procurement transactions in a manner providing full and open
          competition except under certain circumstances. One allowable circumstance is
          when there is a public exigency or emergency for the requirement that will not
          permit a delay resulting from competitive solicitation. (13.36 (c)(1) and (d)(4)(i))

       •	 Perform a cost or price analysis in connection with every procurement action,
          including contract modifications, and make independent estimates before
          receiving bids or proposals. (13.36(f)(1))

       •	 Take all necessary affirmative steps to ensure that minority firms, women’s
          businesses, and labor surplus area firms are used when possible. (44 CFR 13.36
          (e)(1))

   In addition, FEMA’s Public Assistance Guide (FEMA 322, Public Assistance Guide, October
   1999, p. 39) specifies that—

       •	 Contracts must be of reasonable cost, generally must be competed, and must
          comply with Federal, State, and local procurement standards.

       •	 Noncompetitive proposals should be used only when the award of a contract is
          not feasible under small purchase procedures, sealed bids, or competitive
          proposals, and one of the following circumstances applies: (1) the item is
          available only from a single source, (2) there is an emergency requirement that
          will not permit a delay, (3) FEMA authorizes noncompetitive proposals, or (4)
          solicitation from a number of sources has been attempted and competition is
          determined to be inadequate.

   FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
   case-by-case basis (44 CFR 13.6(c)).

   The City did not solicit competitive bids when awarding contract work totaling
   $5,991,845 under Project 3012 for debris removal from public rights-of-way and cleanup
   activities. Instead, the City contacted three area contractors and awarded the work
   without negotiation. Full and open competition increases the probability of reasonable



www.oig.dhs.gov                                 3	                                        DA-12-20
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   pricing from the most qualified contractors and allows the opportunity for minority
   firms, women’s business enterprises, and labor surplus area firms to participate in
   federally funded work. Full and open competition also helps discourage and prevent
   favoritism, collusion, fraud, waste, and abuse. In addition, the City did not perform a
   cost or price analysis of the contractors’ proposed prices. A cost or price analysis
   decreases the likelihood of unreasonably high or low prices, contractor
   misinterpretations, and errors in pricing relative to the scope of work. We question the
   $5,991,845 of contract costs because FEMA has no assurance that the City paid a fair
   and reasonable price for the project work.

   City officials said that exigent circumstances warranted the use of noncompetitive
   contracting and that they acted in the best interest of their citizens. However, the
   contracts in question were awarded for debris removal from the City’s rights-of-way.
   FEMA has determined that such activity is not a public exigency or emergency that
   relieves the applicant of competitive bidding (FEMA Policy 9580.4, Fact Sheet: Debris
   Operations – Clarification: Emergency Contracting vs. Emergency Work, January 2001).

   Finding C: Duplicate Benefits

   The City’s claim included $30,238 of costs that were covered by insurance and by the
   Federal Highway Administration. Section 312(a) of the Robert T. Stafford Disaster Relief
   and Emergency Assistance Act, as amended, states that no entity will receive assistance
   for any loss for which financial assistance has already been received from any other
   program, from insurance, or from any other source. We question the $30,238 as
   follows:

       •	 Under Project 258, FEMA reduced project costs by $648,068 based on estimated
          insurance proceeds. However, the City actually received $660,278 of insurance
          proceeds to cover losses under the project, or $12,210 more than the amount
          reduced by FEMA.

       •	 Under Project 3012, the City received $759,614 from the Federal Highway
          Administration for debris removal ($741,586) and emergency protective
          measures ($18,028) on Federal-aid roads. FEMA credited the project with the
          $741,586 received for debris removal, but mistakenly did not credit the $18,028
          for the emergency protective measures work (cones and barricades, and
          maintenance of traffic).




www.oig.dhs.gov                               4	                                       DA-12-20
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                  RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Instruct the State to emphasize to subgrantees the
           requirement that FEMA project expenditures be accounted for on a project-by-
           project basis (44 CFR 206.205(b)(1) and 44 CFR 13.20(b)(2)) (finding A).

           Recommendation #2: Disallow the $5,991,845 of ineligible costs claimed for
           debris removal contracts that were not procured in accordance with Federal
           procurement requirements, unless FEMA makes an affirmative decision that all
           or part of the contract costs are fair and reasonable, and waives the
           procurement requirements as provided for in 44 CFR 13.6(c) (finding B).

           Recommendation #3: Disallow $30,238 of ineligible costs claimed for costs
           covered by insurance and the Federal Highway Administration (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

   We discussed the results of our audit with City, grantee, and FEMA officials during our
   audit. We also provided a draft report in advance to these officials and discussed them
   at an exit conference held with City and grantee officials on April 12, 2012, and with
   FEMA officials on April 19, 2012. City officials agreed with finding A, but withheld
   comments on findings B and C pending receipt of the final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   Felipe Pubillones, Audit Manager; Salvador Maldonado-Avila, Auditor-in-Charge; and
   Carlos Aviles, Auditor.


www.oig.dhs.gov                               5                                        DA-12-20
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Please call me with any questions, or you staff may contact David Kimble, Eastern
   Region Audit Director, at (404) 832-6702.

   cc: 	 Administrator, FEMA
         Chief Counsel, FEMA
         Chief Procurement Officer, FEMA
         Audit Liaison, FEMA Region IV
         Audit Liaison, FEMA (Job Code G-11-025)
         Audit Liaison, DHS GAO-OIG Liaison
         Director, DHS Departmental GAO-OIG Liaison Office
         Director, Florida Division of Emergency Management
         State Auditor, Florida
         Finance Director, City of Miramar




www.oig.dhs.gov                               6	                                       DA-12-20
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                 EXHIBIT

                               Schedule of Projects Audited 

                             October 23, 2005, to April 6, 2011 

                                 City of Miramar, Florida 

                            FEMA Disaster Number 1609-DR-FL 


                  Project    Amount               Amount             Amount
                  Number     Awarded         Claimed/Reviewed       Questioned
                   258       $      59,363          $     59,363     $     12,210
                   302             238,104              238,104
                   2786            157,928              157,928
                   3012       12,883,972             12,883,972          6,009,873
                   4262        1,650,223              1,650,223
                   5325          545,079                545,079
                   5386          159,785                159,785
                   5525           49,460                 49,460
                   7130          132,142                132,142
                   Total     $15,876,056            $15,876,056      $6,022,083




www.oig.dhs.gov                              7                                       DA-12-20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
